                Office of Forensic Auditing, Evaluation and Analysis
                Office of Inspector General
                U.S. General Services Administration




INSPECTION REPORT
Security Vulnerabilities – Protecting
Information and Property in the GSA Central
Office Open Space

Report Number: JE15-001
October 16, 2014
                                  REPORT ABSTRACT

OBJECTIVE
Our objective was to          Security Vulnerabilities – Protecting Information
identify weaknesses in the   and Property in the GSA Central Office Open Space
physical security of                            Report Number: JE15-001
sensitive information and
highly pilferable
                                                    October 16, 2014
government-furnished
personal property in the     What We Found
open office space at the     We identified the following during our inspection:
GSA Central Office.
                             1. Physical control weaknesses in securing sensitive information
                                covered by the Privacy Act (5 U.S.C. § 552a) and the Trade
                                Secrets Act (18 U.S.C. § 1905).
                             2. Physical control weaknesses in securing highly pilferable
                                government-furnished personal property.
                             What We Recommend
                             Based on our findings we recommend GSA supervisors and
                             managers:

                             1. Enforce GSA policies and procedures for the safeguarding of
                                Personally Identifiable Information, other sensitive
                                information, and highly pilferable government-furnished
                                personal property.
                             2. Routinely monitor for security compliance by both employees
                                and contractors.
                             3. Assess the adequacy of secure storage space available to meet
                                employee and contractor needs.
Office of Forensic           Management Comments
Auditing, Evaluation and
Analysis (JE)                The Chief of Staff concurred with our recommendations and
1800 F Street, NW,           launched a campaign educating employees of the associated policies
Suite 5013                   and procedures. Management’s comments can be found in their
Washington, DC 20405         entirety in Appendix B.
202-273-4989




                                               i
   JE15-001
                 U.S. General Services Administration
                 Office of Inspector General



DATE:               October 16, 2014

TO:                 ADAM NEUFELD
                    Chief of Staff (AC)


FROM:               PATRICIA D. SHEEHAN
                    Director
                    Office of Forensic Auditing, Evaluation and Analysis (JE)

SUBJECT:            Inspection Report
                    Security Vulnerabilities – Protecting Information and Property in the GSA
                    Central Office Open Space
                    Report Number: JE15-001

This report presents the results of our inspection of the GSA Central Office conducted on July
30, 2014. Our findings and recommendations are summarized in the Report Abstract.
Instructions regarding the resolution process can be found in the email that transmitted this
report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of the Inspection
team at the following:

 Patricia Sheehan         Director              Patricia.Sheehan@gsaig.gov 202-273-4989
 Natalie Granito          Auditor               Natalie.Granito@gsaig.gov  202-273-7267
 Rashawna Chapman         Management            Rashawna.Chapman@gsaig.gov 202-273-7252
                          Analyst
 Gabrielle Perret         Management            Gabrielle.Perret@gsaig.gov          202-273-7268
                          Analyst

On behalf of the inspection team, I would like to thank you and your staff for your assistance during
this inspection.




                                                 ii
JE15-001
RESULTS IN BRIEF

On July 30, 2014, the OIG Office of Forensic Auditing, Evaluation and Analysis conducted an
after-hours limited inspection of the open office space at the General Services Administration
(GSA) Central Office. The inspection identified physical control weaknesses in securing
sensitive information covered by the Privacy Act (5 U.S.C. § 552a) and the Trade Secrets Act
(18 U.S.C. § 1905), as well as physical control weaknesses in securing highly pilferable
government-furnished personal property.

The inspection of the GSA Central Office open space found numerous incidences of unsecured
Personally Identifiable Information (PII) 1 and other sensitive information. 2 The inspection found
an unsecured HSPD-12 PIV card, sensitive contract files, architectural drawings marked
“SENSITIVE BUT UNCLASSIFIED,” unlocked file cabinets containing sensitive information, a
combination code for a bay of personal lockers that was left directly on top of those lockers, and
a door cipher lock combination taped to the back of the door. The inspection also found valuable
property that was unsecured, including laptops and other electronics.

This report discusses the results of the OIG’s inspection of the GSA Central Office, and
recommends that GSA managers and supervisors: (1) enforce GSA policies and procedures for
the safeguarding of PII, other sensitive information, and highly pilferable government-furnished
personal property; (2) routinely monitor for security compliance by both employees and
contractors; and (3) assess the adequacy of secure storage space available to meet employee and
contractor needs.

BACKGROUND

The GSA Central Office renovation Phase I, completed for employee reoccupation in 2013,
created an open space work environment that eliminated traditional office doors and cubicles in
favor of a desk and conference room reservation system with few permanent desk assignments.
GSA’s traditional office space was previously secured by office suites with locked doors. The
open workspace has created a new environment in which employees now have open-concept
offices with “hotel desks” 3 that feature personal lockers and locking file cabinets. The transition
to a more collaborative workspace has increased security risks for vulnerable assets and sensitive


1
  Personally Identifiable Information (PII), as defined in OMB Memorandum M-07-16, refers to information that can be used to
distinguish or trace an individual’s identity, either alone or when combined with other personal or identifying information that is
linked or linkable to a specific individual. The definition of PII is not anchored to any single category of information or
technology. Rather, it requires a case-by-case assessment of the specific risk that an individual can be identified.
2
  For the purposes of this report, “sensitive information” is any information GSA has determined requires some degree of
heightened protection from unauthorized access, use, disclosure, disruption, modification, or destruction because of the nature of
the information, e.g., personal information required to be protected by the Privacy Act of 1974, proprietary commercial
information, information critical to agency program activities, and information that has been or may be determined to be exempt
from public release under the Freedom of Information Act.
3
 For this report we define hotel desks in accordance with GSA’s Successful Hoteling: GSA’s 10 Tips as “Hoteling is the office
management strategy that considers certain office resources, such as workspaces and equipment, to be shared assets, rather than
assets ‘owned’ by specific individuals within an organization….Hoteling is typically characterized by reservation and check-in
processes.” http://www.gsa.gov/graphics/admin/Successful-Hoteling-Tips_Final.pdf, retrieved September 8, 2014.


                                                                 1
JE15-001
information as GSA employees adjust to taking new steps to physically secure property and
information in their personal workspaces.

In addition to the many GSA directives that broadly address controls to protect property and
sensitive information, 4 GSA has also communicated specific guidance to address the new open
office space through a blog series of frequently asked questions targeting issues employees may
experience during the transition. 5 These blog entries discussed a variety of security issues in the
new open office environment, including:

            Employees working on sensitive material or information will have to be diligent about
            monitoring their environment and securing information as necessary. Materials can be
            secured in shared filing cabinets, in employee personal storage, or for a short period, in
            the locking peds 6 that are at the workstation.

Furthermore, GSA’s intranet site contains a training presentation entitled, “GSA Central Office,
Office of Theft Prevention Training, June 2014, Crime Prevention Tips,” with suggestions for
reducing the potential for theft in the workplace. The training emphasizes precautions all
employees and contractors could take to prevent burglary, theft, or vandalism, such as:

            •    Lock all offices, conference rooms, or storage rooms that are regularly unoccupied.
            •    If you are the last to leave at night, secure all computer systems, critical files, and
                 copiers.
            •    When employees must work before or after business hours they should keep their
                 doors locked.

Moreover, GSA employees and contractors are required to take annual training, “IT Security
Awareness and Privacy 101 Training,” that highlights requirements for protecting PII. Finally,
when using GSA’s collaborative work system, users are required to acknowledge their
responsibility to safeguard GSA property and information by agreeing to:

            •    Protect and conserve Government resources and assets from theft, destruction and use
                 for other than authorized purposes.
            •    Physically secure highly pilferable and/or sensitive items that are in their custody
                 when their office spaces or buildings are unoccupied.
            •    Employ locking devices or put highly pilferable or sensitive items in a secure place
                 while teleworking and while on travel.
            •    Promptly report the loss, theft, damage, or disappearance of property to their
                 immediate supervisor. 7

4
 GSA directives applicable to protection of property and sensitive information include, but are not limited to: GSA Order
2104.1A CIO, GSA Information Technology (IT) General Rules of Behavior; GSA Order 2180.1 HCO, Rules of Behavior for
Handling Personally Identifiable Information (PII); and GSA Order 7800.12 ADM, Management of the U.S. General Services
Administration’s (GSA) Internal Personal Property.
5
    “Countdown to Downtown, 1800 F Making Our Move,” retrieved from GSA’s intranet site, InSite, July 23, 2014.
6
    “Peds” are short for mobile pedestal filing cabinets on wheels, often used for under desk storage.
7
  “Employee Accountability for GSA Property,” and “Accountability for GSA Personal Property,” certification items (1)(a)
through (d), retrieved from GSA’s cloud computing environment, August 1, 2014.

                                                                   2
JE15-001
FINDINGS

UNSECURED SENSITIVE DOCUMENTS
During the inspection, we observed and documented unlocked personal lockers, drawers, and
shared file cabinets that contained PII and other sensitive information. We found unsecured
contract files, some containing source selection information marked with strict control
designations, as well as personnel and training forms containing PII, a certification of an
employee’s background investigation, and employee performance appraisals.




                                           `


    Figure 1: Documents such as this
    labeled “Technical Evaluation
    Board,” “SOURCE SELECTION
    INFORMATION,” and “DO NOT
    RELEASE” were found in
    unsecured drawers.




We also found keys to cabinets stowed in open personal drawers, allowing anyone to easily gain
access to other secured cabinets which could potentially leave more documents vulnerable.

Numerous documents containing PII, such as employee personnel documents, travel vouchers,
and Authorization, Agreement and Certification of Training (SF-182) forms were found on top of
desk surfaces in plain sight.




                                               3
JE15-001
      Figure 2: This folder, labeled
      “CONFIDENTIAL – OPEN
      BY ADDRESSEE ONLY,” was
      found on top of a desk drawer
      along with other documents.
      The folder’s seal was broken
      and contained sensitive
      employee performance reviews
      and assessments.




Other sensitive documents were stacked on top of shared working areas. These items contained
either PII or other sensitive information. For example, architectural drawings for courthouses and
other federal buildings were left unsecured on large tables. These architectural drawings
explicitly stated that the information was “SENSITIVE BUT UNCLASSIFIED.” Furthermore,
the cabinets designed specifically for holding these large documents did not have locks. In
another instance, the combination code for a bay of personal lockers was left directly on top of
those lockers. When tested, the combination opened several lockers, one of which contained PII.


    Figure 3:
    Architectural
    drawings, marked
    with strict control
    designations, were left
    on top of tables.
    Many were drawings
    of federal buildings
    such as courthouses.




The inspection team also found two documents containing employee PII, such as name, address,
Social Security number, and phone number, in a shared supply center. One document was found
in a printer tray, while the other was stacked in a tray designated for printing jobs that had not
been retrieved. GSA Rules of Behavior for Handling Personally Identifiable Information (PII)
explicitly states “Don’t let PII documents sit on a printer where unauthorized employees or
contractors can have access to the information.” 8


8
    GSA Order 2180.1 HCO, GSA Rules of Behavior for Handling Personally Identifiable Information (PII) section (7)(i).

                                                                4
JE15-001
The GSA Information Technology (IT) Security Policy (CIO P 2100.1I) requires employees to
report incidents of unsecured documents containing PII to an information security officer, or
other proper authorities. After our physical inspection, we contacted the GSA Privacy Officer to
inquire about employee reports of PII breaches at the GSA Central Office. We were advised of
one reported breach within the last year.

During the inspection, items that were sensitive and unsecurable were removed, and a notice was
left stating, “We identified unsecured sensitive information. Due to the sensitive nature of this
information, we have taken possession of it to secure its privacy,” and included our contact
information for retrieval. Many employees who contacted our office to retrieve these unsecured
sensitive items had no knowledge of exactly what items were taken from their work spaces.
Some items have yet to be claimed.

UNSECURED HIGHLY PILFERABLE PERSONAL PROPERTY
During our inspection, an HSPD-12 PIV card was found in an unsecured drawer. The badge
belonged to a former GSA contractor. We tested the badge on the security turnstile and found it
to be active. An active HSPD-12 PIV permits unrestricted physical access to the GSA Central
Office building, and potentially any federal building. This indicates inadequate security over
HSPD-12 processing and raises further questions as to GSA’s procedures for confiscating or
deactivating HSPD-12 cards that should no longer be in use. As of the date of this report, no one
has contacted the OIG to claim the badge, and the building security office has advised that there
have been no reports of this HSPD-12 card being missing, lost, or stolen. The OIG is currently
addressing this issue through the ongoing review, Evaluation of Controls over HSPD-12
Issuance and Destruction for Contractors.



  Figure 4: This HSPD-12 PIV
  card was found in an
  unsecured drawer.




In addition, we found a GSA issued laptop that was left on top of a bay of lockers. During the
inspection, we were unable to determine which employee it was assigned to, or which locker it
should have been secured in. Consequently, we took possession of it, and inventoried it with the
other items that we secured.

The owner contacted us and was able to pick it up the next day. Upon retrieving the confiscated
laptop, the employee explained that both personal possessions and GSA property did not fit into
an assigned locker; therefore, the employee had decided to secure personal belongings (several


                                                5
JE15-001
pairs of shoes) in the locker rather than the GSA laptop. An assessment of the adequacy of secure
storage space at the GSA Central Office is needed.




      Figure 5: This laptop
      was left unsecured on top
      of a bay of lockers.




Many supplies and high-value electronics, such as portable laminate machines and projectors –
each valued up to $1,000 – were found in unlocked closets and were vulnerable to theft.
Additionally, we found unsecured laptops in open drawers at multiple peds.




      Figure 6: Two laptops were found in
      an unlocked drawer. These items
      were secured in place by the OIG
      inspectors.




Throughout the inspection we observed that supply centers and their related inventory, such as
toner cartridges, were accessible after-hours, increasing the risk of theft. Cabinets in the supply
centers were easily securable; however, keys were left in their corresponding cabinet locks. We
contacted Federal Protective Services (FPS) to determine if there were any reported thefts since
the transition into the new shared open office space. FPS advised that in the last year there were
five reported thefts at the GSA Central Office, two of which were thefts of GSA property.



                                                 6
JE15-001
CONCLUSION

GSA requires and provides training and guidance to address physical security risks to its
employees and contractors. However, the lack of due diligence in safeguarding PII, other
sensitive information, and highly pilferable government-furnished personal property, leaves GSA
vulnerable to potential threats. As a result of this inspection, the agency has since publicized
numerous security reminders in poster displays, emails, and blogs.

RECOMMENDATIONS

   1. GSA supervisors and managers should enforce GSA policies and procedures for the
      safeguarding of PII, other sensitive information, and highly pilferable government-
      furnished personal property.

   2. GSA supervisors and managers should routinely monitor for security compliance by both
      employees and contractors.

   3. GSA supervisors and managers should assess the adequacy of secure storage space
      available to meet employee and contractor needs.




                                               7
JE15-001
APPENDIX A – OBJECTIVE SCOPE AND METHODOLOGY

The Office of Forensic Auditing, Evaluation and Analysis performed an unannounced after-
hours building inspection of shared open space to identify weaknesses in the physical security of
sensitive information and highly pilferable government-furnished personal property. The
inspection was conducted in the newly renovated 1800 F GSA building on Wednesday July 30,
2014 between the hours of 7:00 p.m. and 11:00 p.m. EST. The searches we performed for this
inspection were limited to the Central Office located at 1800 F Street, NW, Washington, D.C.

We conducted this inspection in accordance with Quality Standards for Inspection and
Evaluation developed by the Council of the Inspectors General on Integrity and Efficiency. In
accordance with those standards, we planned and performed the inspection to collect sufficient,
relevant evidence to provide a reasonable basis for our findings, conclusions, and
recommendations.

In order to accomplish the objective, we subjectively selected workstations, office storage, and
office rooms in the open work space, including supply centers and conference rooms, to perform
targeted searches for: (1) unsecured highly pilferable government-furnished personal property
(such as laptops and other electronics); and (2) unprotected sensitive information, including PII.

To perform our test work of certain physical controls over the security of vulnerable assets and
sensitive information, we performed a subjective search of GSA open work space. We
subjectively selected floors and areas to search, from the basement level to the 7th floor. In order
to discover instances of unsecured sensitive information and highly pilferable government
furnished property, we conducted the following steps:

   •   Tested for unlocked cabinets/safes/lockers;
          o Inspected contents of unlocked cabinets/safes/lockers;
   •   Probed for unlocked computer screen access;
   •   Searched personal workspaces, supply centers, trash bins, recycle bins, closets, and
       countertops;
   •   Scanned for keys and lock combinations, and;
   •   Tested for unlocked offices.

When unsecured sensitive documentation was encountered, we used our professional judgment
to determine whether it required our removal and safeguarding. If sensitive business documents
were found in lockable cabinets, we locked the cabinets and confiscated the keys to secure them.
Examples of criteria used to confiscate or secure documents included:

   •   Social Security numbers combined with names, addresses, or other personal information.
   •   Documents marked Limited Official Use Only (LOUO), sensitive, For Limited Use Only,
       Sensitive but Unclassified, Do Not Release, Do Not Distribute, etc.

When we encountered unsecured highly pilferable valuable property, we used our professional
judgment to determine whether it required our removal and safeguarding. If highly pilferable


                                                 8
JE15-001
valuable property was found in lockers, we secured it by locking it in the passcode-protected
electronic lockers.

For all instances when unsecured sensitive information or highly pilferable personal property
was removed for safeguarding, as well as all instances when cabinet keys were confiscated, a
notice was left at the workspace detailing our action. The notice stated that we had taken
possession of the sensitive information to secure its privacy, and included OIG contact
information for retrieval.

Because we were unable to remove and safeguard all items documented during the inspection, a
memorandum was issued on July 31, 2014 to the Central Office building services manager
describing the conditions found and recommending GSA take all necessary action to ensure
sensitive information is physically protected in the Central Office open space. 9

All of our findings are based on observation during our inspection work performed on July 30,
2014. We documented all of our evidence with photographs and detailed descriptions of our
findings on each floor. All evidence was approved by the Director of Office of Forensic
Auditing, Evaluation and Analysis, who was onsite to supervise the work for the entire span of
the inspection. All evidence seized was catalogued for return to its owners. Because of the
judgmental nature of the work performed for this inspection, we cannot generalize our results to
any other locations or points in time.




9
 Office of Forensic Auditing, Evaluation and Analysis Memorandum, “GSA Central Office Physical Controls Over Sensitive
Information,” July 31, 2014.

                                                            9
JE15-001
APPENDIX B – MANAGEMENT COMMENTS




                                   10
JE15-001
           11
JE15-001
